Washington, D.C. 20530

December 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Michael Moore v. United States of America,
S.Ct. No. 20-6027

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 2, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on December 10, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6027
MOORE, MICHAEL
USA

MICHAEL MOORE
PRISONER NO. 69242018
PO BOX 1032
COLEMAN, FL 33521

